<html>
<title> - HUMAN RIGHTS IN XINJIANG: RECENT DEVELOPMENTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       HUMAN RIGHTS IN XINJIANG: 
                          RECENT DEVELOPMENTS 

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2009

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-222 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






























                             C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Charlotte Oldham-Moore, Staff Director, 
  Congressional-Executive Commission on China....................     1
Grob, Douglas, Cochairman's Senior Staff Member..................     2
Reger, Amy, Researcher, Uyghur Human Rights Project..............     3
Turkel, Nury A., Attorney with Kirstein and Young, PLLC..........     6
Kaup, Katherine Palmer, Associate Professor of Political Science 
  and Chair, Department of Asian Studies, Furman University......    10
Greve, Louisa, Program Director for East Asia, National Endowment 
  for Democracy..................................................    13

                                APPENDIX
                           Prepared Statement

Reger, Amy.......................................................    27


                       HUMAN RIGHTS IN XINJIANG:
                          RECENT DEVELOPMENTS

                              ----------                              


                       FRIDAY, FEBRUARY 13, 2009

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10:04 
a.m., in room 628, Dirksen Senate Office Building, Charlotte 
Oldham-Moore, Staff Director, presiding.
    Also Present: Douglas Grob, Cochairman's Senior Staff 
Member; Kara Abramson, Advocacy Director; and Toy Reid, Senior 
Research Associate.

          OPENING STATEMENT OF CHARLOTTE OLDHAM-MOORE,

  STAFF DIRECTOR, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Ms. Oldham-Moore. Good morning. My name is Charlotte 
Oldham-Moore and I am Staff Director of the Congressional-
Executive Commission on China [CECC], which is chaired by 
Senator Byron Dorgan. I am joined by Douglas Grob, Senior Staff 
Member to Cochairman Representative Sander Levin.
    Today we are very fortunate to have an expert panel to 
discuss ``Human Rights in Xinjiang: Recent Developments.'' We 
also have in the audience Ms. Rebiya Kadeer. We welcome her and 
thank her so much for attending this morning.
    Today our panel of witnesses will examine recent 
developments in Xinjiang Uyghur Autonomous Region, an area 
inside China's northwest border, which is home to a Muslim 
Turkic Uyghur population and several other ethnic groups.
    As many of you may know, human rights abuses in the region 
have long been severe. The CECC has noted in its Annual Reports 
that the government has used anti-terrorism campaigns as a 
pretext for enforcing repressive security measures and for 
controlling expressions of religious and ethnic identity, 
especially among the Uyghur population.
    Last year, in our annual report on human rights and rule of 
law developments in China, we noted an increase in repression 
in Xinjiang amid security preparations for the summer Olympic 
Games in Beijing and elsewhere in China. This involved 
intensive anti-terrorism campaigns in the region and heightened 
social controls following protests among ethnic minorities in 
China.
    In Commission monitoring of news in the aftermath of these 
events, in part based on reports by the Uyghur Human Rights 
Project and, of course, the Radio Free Asia Uyghur Service, 
which does fine work, we have found the government continues to 
implement an array of security measures in Xinjiang while 
maintaining policies aimed at promoting ethnic assimilation.
    I am going to turn to Doug Grob, who will introduce our 
distinguished guests, and then after they have made their 
statements, we will turn to the audience for the question-and-
answer session. Thank you.

  STATEMENT OF DOUGLAS GROB, COCHAIRMAN'S SENIOR STAFF MEMBER

    Mr. Grob. Thank you very much, Charlotte, and thank you all 
for joining us here today. It is a great pleasure to introduce 
our distinguished panel to you. First, I have the honor of 
introducing you to Ms. Amy Reger. Ms. Reger is Researcher at 
the Uyghur Human Rights Project. She has authored numerous 
reports and publications on Uyghur human rights issues, and 
also has spoken on these issues at government forums, both in 
the United States and abroad. Her reporting has significantly 
raised awareness of Uyghur issues both among congressional 
staff and Members of Congress, as well as among staff and 
officials within the Executive Branch. We are very pleased and 
honored to have her here today to speak on recent developments 
in Xinjiang, including information on education policies and 
security campaigns in the region.
    Also, to my left, is Mr. Nury Turkel, an attorney with the 
law firm of Kirstein & Young, PLLC. Mr. Turkel is a gentleman 
with extraordinary expertise in Uyghur human rights issues, and 
many years of experience working to promote the rule of law in 
China and Central Asia. He has written commentaries on public 
policy and legal matters in major U.S. publications, and has 
appeared on numerous news and public affairs programs. His 
testimony today will focus on current trends affecting the 
Uyghur people in areas including freedom of religion, cultural 
rights, freedom of movement, and China's global influence.
    To my right, I have the privilege of introducing to you 
Professor Katherine Palmer Kaup, Associate Professor of 
Political Science and the Chair of the Department of Asian 
Studies at Furman University in Greenville, South Carolina. 
Professor Kaup is also the Director of China Programs at the 
Richard W. Riley Institute of Government, Politics, and Public 
Leadership. Professor Kaup is the author of the book ``Creating 
the Zhuang: Ethnic Politics in China,'' and she is the author 
of several articles on the impact of state policy and of 
administrative divisions on ethnic identity and mobilization in 
China's southwest regions as well as in Xinjiang. And in 2005, 
she served as a Special Adviser on Minority Nationality Affairs 
at the Congressional-Executive Commission on China. So we are 
very pleased to have you back today to provide us with 
information on the Chinese Government's ethnic minority 
policies in general, and toward Xinjiang in particular, and to 
discuss broader, long-term trends in the region.
    Finally, also to my right, I have the honor of introducing 
to you Ms. Louisa Greve, who is Program Director for East Asia 
with the National Endowment for Democracy. The National 
Endowment for Democracy makes grants to democracy and human 
rights organizations in more than 80 countries. Ms. Greve has 
studied, worked, and traveled in China since 1980, and has 
testified before congressional committees on human rights in 
China and democracy promotion in Asia. Her work has been of 
extraordinary importance and impact, and has made a significant 
contribution to this Commission's understanding of conditions 
in China. She will speak today on the connection between 
developments in Xinjiang and China's broader human rights and 
rule-of-law development, and also will look at issues including 
China's rights defense movement and ethnic claims in 
transitioning societies.
    So, with that, I would like now to turn the floor over to 
Amy Reger. Thank you.

STATEMENT OF AMY REGER, RESEARCHER, UYGHUR HUMAN RIGHTS PROJECT

    Ms. Reger. I would like to thank the CECC and Charlotte 
Oldham-Moore and Doug Grob for holding this panel and providing 
such a rare opportunity for us to have a public forum to 
discuss Uyghur human rights issues. And I especially want to 
thank Kara Abramson, who I know has worked really hard on 
putting this together, and who is always very helpful to us in 
our work, and it is really an honor for me to speak on this 
panel with Kate Kaup and with Louisa and Nury, both of whom I 
consider as great mentors.
    Members of the Chinese Government delegation asserted 
during this week's Universal Periodic Review process that there 
is no ethnic conflict in the People's Republic of China [PRC], 
except for conflict stemming from a very few individuals backed 
by foreign forces aiming to split China. However, the reality 
for the Uyghur people is much different from this rhetoric. The 
past year marked a period of extreme oppression for Uyghurs, 
marked by a sharp increase in arrests for state security crimes 
and security crackdowns aimed at the broader Uyghur population.
    The Chinese Government intensified its use of the war on 
terror to persecute Uyghurs through mass arrests, detentions, 
and executions, the mobilization of armed police and security 
forces to the region, and ideological campaigns aimed at 
stamping out the ``three evil forces'' of terrorism, 
separatism, and extremism.
    Remarks in just the past two months by top officials in 
East Turkistan indicate a stepped-up security drive and an 
intensified crackdown on peaceful expressions of Uyghur 
identity and dissent. On January 11, Provincial Party Secretary 
Wang Lequan told members of the People's Armed Police Forces 
that the ``three evil forces'' appeared to be preparing a 
series of attacks in the region. Deputy Communist Party 
Secretary Nur Bekri was quoted in official Chinese media as 
telling 500 government delegates on January 7 to be on guard 
against the ``three evil forces'' and to be prepared for a 
long-term battle against these elements.
    In September of last year, Nur Bekri delivered a lengthy 
speech accusing Western countries of instigating terrorism, 
separatism, and extremism in East Turkistan. Bekri's remarks 
are consistent with previous Chinese Government assertions 
linking outside forces with alleged domestic terrorism. In line 
with earlier official claims regarding Uyghur terrorism, Bekri 
did not offer any evidence to substantiate his assertions.
    Chinese officials, led by Wang Lequan, have consistently 
attempted to link human rights organizations with terrorism and 

alleged terrorist groups in order to discredit their human 
rights efforts. In recent months, both Nur Bekri and Wang 
Lequan have also frequently resorted to character assassination 
with respect to Uyghur democracy leader Rebiya Kadeer in a 
clear attempt to demonize her and discredit her human rights 
advocacy. In his speech in September, Bekri directly targeted 
the World Uyghur Congress, a German-based organization led by 
Ms. Kadeer that promotes democracy, human rights, and freedom 
for the Uyghur people.
    Following a series of violent attacks in and around the 
cities of Kucha and Kashgar that took place during the Olympic 
period, Wang Lequan announced a life-or-death struggle in East 
Turkistan. While PRC authorities claimed the security measures 
implemented in the pre- and post-Olympic period were aimed at 
punishing individuals involved in the violent attacks that 
occurred, the scope of the crackdown represents a broad, far-
reaching campaign of intimidation and fear aimed at the Uyghur 
community.
    Security measures carried out during this period included 
the arrest of 160 Uyghur children aged 8 to 14 years old for 
participating in so-called illegal religious activities. 
Religious restrictions were implemented during the Muslim holy 
month of Ramadan in 2008 at an unprecedented level. Students 
and government employees were not permitted to fast during 
Ramadan this year or attend mosques in general. Restaurants 
were also forced to open during fasting hours.
    Since the events of September 11, 2001, PRC authorities 
have used the war on terror as a pretext for cracking down on 
religious and political dissent in the region. Tens of 
thousands of Uyghurs are believed to have been detained and 
hundreds executed in the years since 2001. Individuals caught 
up in this campaign include Tohti Tunyaz, a Ph.D. scholar who 
was released this past Tuesday from prison after serving an 11-
year sentence for conducting historical research in East 
Turkistan deemed subversive by government officials; and 
Nurmemet Yasin, a young Uyghur poet and intellectual who was 
imprisoned for writing an allegorical story that was viewed as 
separatist.
    Uyghurs in East Turkistan suffer a broad scope of abuses to 
their civil, political, economic, and social rights, including 
the fierce suppression of their religion; arbitrary detention, 
torture, and execution; PRC Government support of the influx of 
huge numbers of Han Chinese economic migrants into East 
Turkistan; the forced transfer of young Uyghur women to inland 
China to work in very poor conditions; discrimination in hiring 
practices; unequal access to healthcare services; and the 
elimination of Uyghur language schools under the current 
``bilingual education'' policy.
    ``Bilingual education'' is a very symbolic aspect of a 
government-driven project to assimilate Uyghurs by attacking 
and diluting their culture. Drives to expand ``bilingual 
education'' have paralleled heightened campaigns to promote 
security and battle separatism. The recent announcement of a 
plan to train another 16,000 bilingual teachers for elementary 
schools over the next six years coincides with the recent 
remarks made by Wang Lequan and Nur Bekri regarding the need to 
battle the ``three evil forces.''
    According to Chinese Government propaganda, ``bilingual 
education'' is being put into place throughout East Turkistan 
to improve educational and employment opportunities for Uyghur 
children. One of the major problems with this type of 
justification is that ``bilingual education'' is not bilingual 
at all but, rather, monolingual. Another factor that challenges 
the Chinese Government's official assertions regarding its 
motivations of providing a truly bilingual education is the 
removal of Uyghur children from their cultural environment and 
placement into Chinese language ``Xinjiang classes'' located in 
12 inland Chinese cities. This program is widely viewed in the 
Uyghur community as an attempt to Sinify young Uyghurs.
    The ``bilingual education'' policy has been pursued for the 
past decade, but with increasing intensity since 2002. The 
ultimate goal of ``bilingual education'' appears to be to 
replace Uyghur language instruction with Chinese language 
instruction in all areas of East Turkistan and to phase out the 
use of the Uyghur language among young Uyghurs. From 2002 to 
2005, ``bilingual education'' was implemented in universities, 
high schools, middle schools, and elementary schools. And in 
2005, the ``bilingual education'' push was expanded into East 
Turkistan's preschools.
    The motivations behind the Chinese Government's 
implementation of the ``bilingual education'' policy and the 
Xinjiang classes are varied and complex. While Wang Lequan 
himself is quoted as saying that the chief goal of Xinjiang 
classes is political thought training, not academic 
preparation, the Chinese Government likely hopes to eliminate 
any sense of a unique identity on the part of Uyghurs that it 
perceives would contribute to opposition to government 
policies. Because of the centralized nature of this and other 
Chinese Government policies, Uyghurs remain excluded from 
planning and decisionmaking processes in East Turkistan. This 
is extremely convenient to the government in a region that has 
vast mineral wealth, which is exploited for the benefits of 
China's eastern boomtowns.
    Without working toward the mitigation of growing social, 
economic, and political challenges that face Uyghurs in East 
Turkistan, and without implementing any mechanisms by which 
Uyghurs may address their grievances, the ``bilingual 
education'' policy will not create stability in the region, nor 
will it improve the livelihood of Uyghurs. The continued 
application of this policy will have the inevitable result of 
further alienating the Uyghur people.
    Mr. Grob. Thank you very much, Amy. Now I would like to 
turn the floor over to Mr. Turkel.
    [The prepared statement of Ms. Reger appears in the 
appendix.]

STATEMENT OF NURY A. TURKEL, ATTORNEY WITH KIRSTEIN AND YOUNG, 
                              PLLC

    Mr. Turkel. First, I would like to commend the Commission 
for placing a strong emphasis in its 2008 report on the 
worsening human rights situation in East Turkistan. The Uyghur 
people greatly appreciate any efforts that contribute to 
promoting and protecting their democratic freedoms, including 
the right to be Muslim.
    In January 2003, Chinese Communist Party Xinjiang Secretary 
Wang Lequan said, ``Xinjiang will always keep up the intensity 
of its crackdown on ethnic separatist forces and deal them 
devastating blows without showing any mercy.'' As promised, 
Chinese leaders have ruthlessly punished the Uyghurs, even 
those who have peacefully expressed dissent and opposed China's 
ongoing onslaught against Uyghurs' ethno-national identity. 
These aggressive policies are mostly targeted at Uyghurs' 
religious and cultural identity.
    China's Constitution and many of its laws contain 
guarantees of religious freedom, but Uyghurs only have as much 
religious freedom as local and national authorities allow at 
any given moment. A primary purpose of this highly repressive 
regulatory framework is the enforcement of loyalty to the 
Communist Party and the Chinese state. On the one hand, Uyghurs 
believe in freedom of worship and don't care for Communism. 
Public expression of dissent or deviance from the Party line 
can be grounds for charges such as ``harming national unity,'' 
``disuniting nationalities,'' or even ``harming state 
security.'' These charges carry very heavy penalties and 
punishments under China's criminal law.
    China implements much stricter religious policy with 
respect to Uyghurs compared to other Muslims, particularly Hui 
Muslims. Also, non-Uyghur groups in East Turkistan aren't 
perceived as presenting a secessionist threat, as Uyghurs are. 
The reason for this is that China sees Uyghurs' ethno-national 
identity as a threat and Islam is perceived as feeding Uyghurs' 
ethnic identity. So the subordination of Islam to the Chinese 
state is used as a means to ensure the subordination of Uyghurs 
as well. As such, China strictly controls and manages all 
mosques and stifles religious traditions that have formed a 
crucial part of the Uyghur identity for centuries.
    As a result, devout Uyghur Muslims experience harassment in 
their daily lives. Observing religious holidays, studying 
religious texts, or showing one's religion through personal 
appearance are strictly forbidden in schools, government 
offices, and even public places. The government has instituted 
controls over who can be a clergy member, what version of the 
Qur'an may be used, where religious gatherings may be held, and 
what may be said on religious occasions. For example, 
government officials, state employees, children under 18, and 
women are prohibited from entering mosques and conducting 
religious activities. Violations of these regulations can 
result in expulsion, heavy fines, negative entries into 
Uyghurs' personal dossiers, and administrative punishment, 
including detention and imprisonment.
    Religious figures with the leadership qualities, separatist 
tendencies, or disloyal political views had faced harsh 
punishment, 
including imprisonment. For example, a number of young and 
progressive-minded imams have been removed or even imprisoned 
because of their refusal to use mosques to praise the 
motherland and the Party. In June 2008, a mosque near Aksu city 
was demolished because of its refusal to put up signs in 
support of the Beijing Olympics.
    According to the media reports, including ones reported by 
Radio Free Asia Uyghur Service broadcast during the month of 
Ramadan in 2008, prayer in public places outside the main 
mosque was forbidden and imams' sermons were limited to a half-
hour. Local authorities required some Uyghur-owned restaurants 
to remain open during the day, when Muslims normally fast. Free 
lunches forced Uyghurs to break their fasting and, most 
importantly, identified believers. Government employees were 
told to shave their beards, and police ordered women to remove 
their veils.
    For most Uyghurs the overriding issue isn't religion per 
se, but the perceived threat that religious repression poses to 
their distinct identity, coupled with their acute feeling of 
being colonized. Uyghurs view the tight restrictions placed by 
the Chinese authorities on Uyghur Islam as an attempt to debase 
their very identity, as Islam is an essential component of 
their traditional identity and values.
    China's attempt to suppress Islam as a motive force for 
separatism by confining it to tight state control not only 
profoundly violates human rights principles, but also further 
alienates the Uyghurs, drives religious expression further 
underground, and encourages the development of more radicalized 
and oppositional forms of religious identity. If the current 
trend continues, moderate voices that could mediate tensions 
between the Chinese state and Uyghurs are likely to shrink.
    China effectively exploited the post-9/11 climate that 
followed the attacks in the United States. The arrests of some 
Uyghurs in Afghanistan/Pakistan helped China to consistently 
and successfully portray Uyghurs as the source of a serious 
terrorist threat in China. This perception seems to have now 
become dominant among the Chinese public. The lack of a free 
media has made it almost impossible to compare sources of 
information and to make independent judgments about these 
claims. It is mind-boggling that some Western media 
organizations also helped to further this perception with 
reports that lacked a careful examination of Chinese claims.
    The hasty designation of East Turkistan Islamic Movement 
[ETIM] as a terrorist organization gave a ``green light'' to 
China to intensify its crackdown on political dissent in the 
region. China has used the ETIM designation as a propaganda 
tool to ``confuse'' the Uyghur populations by suggesting that 
the United States is helping China to destroy Uyghurs' ethno-
separatist aspirations. Also, China opportunistically used the 
post-9/11 environment to make the outrageous claim that 
individuals disseminating peaceful religious and cultural 
messages in East Turkistan are terrorists who have simply 
changed tactics. Many devout Uyghur Muslims have been subjected 
to arrest, imprisonment, torture, and even execution.
    China's cultural repression of the Uyghurs is not 
reactive--it is rather a deliberate policy to control, monitor, 
and sterilize Uyghur culture so that it cannot be a vehicle for 
self-rule. Late last August, Wang vowed ``preemptive strikes'' 
on Uyghurs. He has been also advocating a ``reeducation'' drive 
to enhance Uyghurs' ``identification with the Chinese nation 
and culture.'' Han Chinese people treat Uyghurs as inferiors 
and look down on Uyghur culture. Two top Chinese officials in 
Urumchi have helped to create a public perception that Uyghurs' 
cultural heritage is ``outdated'' and inferior to that of the 
Chinese, saying that, ``Uyghurs must embrace the Han Chinese 
culture and language.'' For example, Wang said that the 
adoption of Chinese will ``improve the quality of ethnic 
minorities, because indigenous languages are out of step with 
the 21st century.'' Uyghur education is under the current 
``bilingual education'' policy, which is in theory a 
monolingual/Chinese-language-based education system. The 
program is designed to assimilate Uyghurs by attacking and 
diluting their culture.
    The Chinese Government arbitrarily detains and imprisons 
Uyghur historians, poets and writers; burns books on Uyghur 
history and culture; and shuts down Uyghur publishing houses, 
for example, closure of the Kashgar Uyghur Publishing House. 
Targets also include ``terrorism in the spiritual form''--which 
targets Uyghur intellectuals, writers, and musicians. 
Journalists are arrested for ``advocating separatism.''
    Funding for Uyghur cultural reservation and promotion 
programs have been limited or reduced. Discriminatory hiring 
practices are implemented that openly discourage Uyghur 
applicants who otherwise possess the necessary education, 
experience, and skills. Some Uyghurs feel that being a Uyghur 
isn't such a great thing.
    Some Uyghurs share the sentiment, expressed by the Dalai 
Lama, that a form of cultural genocide is taking place in East 
Turkistan akin to that of Tibet. The apparent problem is that 
China lacks the appreciation of a culturally diverse society. 
Eventually, China will create a new generation of Uyghurs who 
won't appreciate their own cultural and ethnic heritage.
    The Chinese Government has restricted Uyghurs' domestic and 
international freedom of movement. Large numbers of Uyghurs 
were evicted from major Chinese cities before the Olympics, and 
most of them were not allowed to return after the Olympics. 
Racial profiling and targeting of Uyghurs because of their 
ethnicity, appearance, and origin are common in inner Chinese 
cities. Basic services such as lodging, transportation, and 
even public bathhouses are not available for the Uyghurs in 
inland Chinese cities. For example, ``No Uyghurs in our Hotel 
and Bathhouse'' ``[I]n compliance with a request from the local 
PSB substation, starting today, investigations will be carried 
out on the lodging circumstances of all individuals of Tibetan 
and Uyghur ethnicity 
residing at inns and bathhouses of the Haidian District. 
Reinforce inspection and verification of any lodger matching 
the description above and report all cases to the local 
dispatch station.''
    China discriminatorily implements its passport law. 
Uyghurs' passports have been almost universally confiscated 
since early 2007. Chinese citizens can obtain passports through 
a fairly simple process, but Uyghurs and Tibetans face much 
greater hurdles obtaining a passport. Article 1 of China's 
passport laws, enacted on January 1, 2007, guarantees PRC 
citizens the rights of exiting and entering China and promotes 
international travel and cultural exchange with foreign 
countries. Article 6 instructs the authorities to process and 
issue a passport within 15 days after receiving an application. 
If an application is not approved, the authorities should give 
the applicant a written explanation and inform him of his right 
to apply for an administrative review or to lodge an 
administrative lawsuit. Also, authorities deny the issuance of 
a passport if they believe that the person leaving China will 
do harm to state security or that their departure will result 
in serious losses to the benefit of the state. This has 
prevented family unifications and visits overseas. For example, 
parents could not attend significant events such as weddings 
and funerals. The restriction on Uyghurs' freedom of movement 
and travels reminds us of the Jewish experience in Nazi Germany 
in the late 1930s.
    China has dissuaded governments historically sympathetic to 
Uyghurs. Case in point, Uyghur democracy leader Rebiya Kadeer's 
visa issues--at the request of the Chinese Government, Turkey 
has rejected her visa applications, even for attending National 
Endowment for Democracy's [NED] democracy conference in 
Istanbul in spring 2006. Last week, a Turkish MP requested an 
explanation from the Foreign Minister on this issue. South/
Central Asian countries have participated in the deportation, 
extradition, or rendition of Uyghurs to China. Most of them 
have been executed and many are serving long prison terms. For 
example, Uzbekistan deported a Canadian Uyghur to China in 
2006. He was sentenced to life in prison in 2007. To date, the 
Canadians don't have access to him.
    The Shanghai Cooperation Organization [SCO] assists China 
in suppressing Uyghurs' aspirations for self-rule. The SCO 
fights against the ``three evil forces''--separatism, 
terrorism, and religious extremism. Uyghur citizens of central 
Asian countries cannot openly sympathize with the Uyghur 
freedom movement, because of concerns for their own safety. 
This has effectively created Uyghur resentment toward and 
disappointment in other Turkic peoples in Central Asia.
    China has effectively pressured and stopped countries that 
may have provided humanitarian assistance to Guantanamo 
Uyghurs. Despite being cleared for release as early as 2003, 
the Guantanamo Uyghurs are still languishing in prison because 
no country is willing to take them. Reportedly, the U.S. State 
Department reached out to over 100 countries, but none agreed 
to accept the Uyghurs. The economic and diplomatic threat of 
straining relations with China by accepting the Uyghurs has 
been enough to scare a number of governments away from taking 
them.
    I would like to make a quick recommendation to wrap up my 
testimony. First, China should revisit and acknowledge failed 
minority policies, particularly in East Turkistan and Tibet. 
Second, recognize that harsh treatment will not help achieve 
security. It never worked in world history. Stop the propaganda 
campaign against Uyghurs and provide channels for legitimate 
grievances to be heard. Last, restore Uyghurs' religious and 
cultural rights, and stop coerced abortions carried out on 
Uyghur women.
    The role of the United States is extremely important in 
that she needs to be the Uyghurs' main source of hope. To do 
that: President Obama should publicly express serious concerns 
over the deteriorating human rights situation in East Turkistan 
and allow the 17 Guantanamo Uyghurs to resettle in the United 
States. The emptying of the Guantanamo prison cannot be 
achieved without the cooperation of America's allies, and that 
cooperation cannot be realized without America's firm 
leadership. And President Obama is in a very good position to 
do so. Freeing the 17 Uyghurs in the United States primes the 
pump and removes Europeans' reluctance to help. It also gives 
tremendous hope and sends a positive message to the Uyghurs in 
East Turkistan that the United States is not helping the 
Chinese Government to suppress Uyghurs' democratic aspirations. 
Also, a senior State Department official should visit the 
region to meet with dissidents and family members of political 
prisoners. The United States should appoint a Special 
Coordinator for Uyghur affairs at the State Department. The 
United States should also encourage China to grant Uyghurs 
cultural and religious rights.
    Uyghurs rightfully could ask ``If you prick us, do we not 
bleed? '' But they shouldn't fall into the traps that the 
Communist leadership has intentionally set up. They should 
continue to condemn all acts of violence. Uyghurs should 
remember Ghandi's quote: ``There is a limit to violent action 
and it can fail. Non-violence knows no limits and it never 
fails.'' Continuing to build grassroots support among youth is 
critically important. They should carry out public education 
through media. They should also work with Western democracies 
to prevent China's misuse of its global influence. Uyghurs 
should also encourage critical thinking about CCP messages 
regarding Uyghurs and other minorities. Most importantly, 
Uyghur should work to raise awareness among Chinese democratic 
activists and democratic-minded Chinese about PRC policies.
    Thank you very much.
    Ms. Oldham-Moore. Thank you, Mr. Turkel.
    For those of you who are interested, the full text of Mr. 
Turkel's remarks will be included in the roundtable record, and 
any points you want to address with him, you can do it in the 
Q&A session.
    Mr. Grob. Thank you very much, Mr. Turkel.
    Now I would like to turn the floor over to Professor Kaup.

  STATEMENT OF KATHERINE PALMER KAUP, ASSOCIATE PROFESSOR OF 
   POLITICAL SCIENCE AND CHAIR, DEPARTMENT OF ASIAN STUDIES, 
                       FURMAN UNIVERSITY

    Ms. Kaup. Thank you. And my thanks also to the Commission 
for inviting me to speak today.
    There is no doubt in my mind that there are serious flaws 
in the Chinese Government's minority policies. Policies in 
Xinjiang need to be changed. Unfortunately, however, there are 
no simple solutions to resolving ethnic tensions in Xinjiang. 
There are numerous competing interests at stake in the region.
    Numerous human rights organizations, including those 
presenting here today, have well documented the extensive human 
rights violations occurring in Xinjiang. Precisely because the 
impacts of these policies are felt so dramatically by 
individuals living within the region, discussion of human 
rights conditions in Xinjiang often turns polemical. The 
Chinese Government hurls accusations of widespread 
international terrorism activity among the Uyghurs, while 
critics of the regime accuse it of using terrorism purely as a 
pretext to annihilate the Uyghur culture. There is a tendency 
on both sides to oversimplify the situation and assume that the 
other is simply intransigent and unwilling to implement or 
accept proper policies.
    Unfortunately, there are no simple solutions to resolving 
ethnic tensions in Xinjiang. Nor is there agreement on what 
proper policies might be. There are, instead, numerous 
competing interests at stake in the region. Failure to 
recognize the complexity of the issues facing the Chinese 
Government and failure to place these policies into broader 
context hinders human rights activists' ability to engage the 
Chinese Government in any kind of constructive dialogue.
    Though the Regional Ethnic Autonomy Law is supposed to 
guarantee the minorities a number of rights, even properly 
implemented the law alone cannot protect minority rights in 
Xinjiang. Only mutual trust can enable the minorities and the 
central government to co-exist.
    China is a self-proclaimed, unitary, multinational state, 
and autonomous areas are required, as noted by Article 7 of the 
Regional Ethnic Autonomy Law, to ``place the interests of the 
state as a whole above anything else.'' Natural resources 
throughout the country belong to the central government. Though 
the head of the government of each autonomous area must be a 
member of the titular minority, as elsewhere in the country, 
these leaders are not popularly elected at the county or the 
provincial level, nor are there mandates for ensuring minority 
representation within the Communist Party, where most power 
remains.
    It is, therefore, only through building mutual trust that 
the 
minorities and the central government can learn to co-exist and 
recognize any mutual interest. The current policies, along with 
widespread rhetoric equating ethnic activism and international 
terrorism, are weakening whatever trust exists, even as 
Xinjiang's economic indicators as a whole are improving. The 
Chinese Government's current policies in Xinjiang are working 
at odds with its own goals.
    In my time remaining, I would like to divide my comments 
into three parts. First, I will address why resolving ethnic 
tensions in Xinjiang is at once so important and yet so 
challenging to the central government. I will then illustrate 
how two fundamental assumptions inform all of the Chinese 
Government's minority policies and lead to policies that tend 
to exacerbate rather than alleviate ethnic tensions in the 
region. Finally, I will conclude with some brief 
recommendations for improving ethnic relations in Xinjiang.
    First, why is resolving ethnic tension in Xinjiang at once 
so important and yet so challenging to the Chinese Government? 
It is important to remember that the Xinjiang question is much 
bigger than just Xinjiang. Mishandling policies in Xinjiang 
could have dramatic impact throughout the country. More than 
125 million residents of the PRC are officially classified as 
ethnic minorities. Integrating them and ensuring their loyalty 
to a unified Chinese state has not been easy.
    Minorities are spread across two-thirds of China's land 
mass, often in the most resource-rich areas of the country. 
Despite living in these resource-rich regions, minority 
educational levels fall overwhelmingly below those of the Han 
Chinese, as do numerous other socioeconomic indicators. Income 
levels are, on average, less than half that of the Han Chinese.
    Many of the minorities do not speak Mandarin Chinese and 
have traditions as well as legal and customary practices that 
at times conflict with state laws. Finding a proper balance on 
how best to protect individual citizens and minority groups 
while developing the nation as a whole has been a complex 
challenge for the central government.
    Resolving ethnic tensions in Xinjiang has been particularly 
challenging for the central government. Xinjiang accounts for 
one-sixth of China's total land mass and is home to vast coal, 
oil, and natural gas reserves. Though there was a period of 
relatively loose control in Xinjiang in the 1980s, the collapse 
of the Soviet Union in 1991 alarmed the Chinese Government and 
heightened its interest in keeping the minority territories 
under control.
    Xinjiang borders eight countries, several of which were 
once ethnic republics under the Soviet Union. The expansion of 
oil exploitation in the region in the early 1990s only 
increased tensions over exactly who should benefit from these 
state-owned resources. Han Chinese were sent to the region in 
increasingly large numbers to exploit the oil, which Uyghurs 
were arguably not positioned to do yet due to the dearth of 
trained Uyghur technicians and engineers.
    Two large-scale protests against restrictive ethnic 
policies in 1990 and 1997 further strained relations and 
resulted in increased government crackdowns over expressions of 
Uyghur ethnic identity. The government responded to these 
protests by cracking down harshly on dissent, further fueling 
ethnic tensions.
    Chinese efforts to alleviate these ethnic tensions and 
integrate the country are grounded on two key assumptions: 
First, the government assumes that economic development is the 
key to resolving all ethnic problems; and, second, that Han 
Chinese are inherently more politically reliable than 
minorities. Grounded in Marxist theory, the Chinese Communist 
Party has continuously asserted that development is, in the 
words of Hu Jintao, ``the key to solving all problems of China 
and the key to solving the difficulties and problems in ethnic 
regions.''
    The Chinese Government is wary of minority leaders' 
intentions and has sent by its own admission tens of thousands 
of Han cadre into minority territories specifically to combat 
what it calls ``domestic and foreign forces' vain attempts to 
stir up ethnic separatism.''
    Rapid economic development in Xinjiang and exploitation of 
the vast natural resources requires more technically trained 
personnel than the local population can currently provide. In 
order to rush economic development in hopes of solving ethnic 
tensions, the government offers incentive packages to educated 
personnel from the interior, predominantly Han, territories. 
The intent may be to increase the region's economic development 
as a whole, but the fact remains that the best positions in 
Xinjiang are overwhelmingly dominated by Han Chinese, and the 
government pays those coming from the interior more than locals 
holding similar positions. This is specifically mandated by 
government policy. Central government intentions may not be 
pernicious but the policies, nonetheless, lead to ethnic 
resentment and increased tensions in the region.
    So where do we go from here?
    First, it is crucial to recognize that there are no clear-
cut solutions on how best to protect minority rights while 
simultaneously ensuring the territorial integrity of a unitary 
Chinese state. Better acknowledging the challenges facing the 
Chinese Government while continuing to urge the government to 
ease restrictions on Uyghur identity may lead to a more 
constructive dialogue.
    I would like to propose four recommendations that the U.S. 
Government might encourage the Chinese Government to consider.
    First, the Chinese Government should consider reducing its 
encouragement of mass migration to Xinjiang. Until educational 
levels in Xinjiang are raised and Uyghurs are able to compete 
more equally with Han Chinese, the Uyghurs will only resent 
those offered higher salaries and better positions and will 
discount any of their contributions.
    Two, the Chinese Government should consider further 
increasing investments in the educational system within 
Xinjiang. Long-term success in Xinjiang depends on providing 
the Uyghurs the tools they need to participate fully in the 
region's economic development. The pace of development needs to 
be better managed, probably even slowed, until Uyghurs can play 
a more crucial and central role in the process.
    Three, the Chinese Government should consider offering 
incentives to well-educated Uyghurs willing to remain in 
Xinjiang. Policies encouraging the transfer of skilled labor 
from Xinjiang to the interior should be halted immediately.
    Four, the Chinese Government should recruit more minorities 
into the Chinese Communist Party and promote them to positions 
of real leadership. Though the Regional Ethnic Autonomy Law 
requires the head of each autonomous area to be drawn from the 
titular minority, real power in the country remains in the 
hands of the Communist Party. Policies barring religious 
believers from party membership should be waived to encourage 
greater minority participation and enable those with real ties 
in the local communities to succeed within the party.
    In conclusion, properly recognizing the complexities facing 
the Chinese Government may enable more constructive dialogue on 
human rights issues in Xinjiang. The Chinese Government hopes 
to ease ethnic tensions through rapid economic development and 
assuring that Han Chinese retain control of key government and 
party positions. These two policies, however, are exacerbating 
rather than alleviating tensions. Combined with strict security 
policies, these policies may eventually radicalize a currently 
peaceful minority.
    Thank you.
    Mr. Grob. Thank you very much, Professor Kaup.
    And now I would like to turn the floor over to Ms. Louisa 
Greve. Thank you.

  STATEMENT OF LOUISA GREVE, PROGRAM DIRECTOR FOR EAST ASIA, 
                NATIONAL ENDOWMENT FOR DEMOCRACY

     Ms. Greve. Thank you. My topic today is the relationship 
of the situation in Xinjiang to that in the rest of China. In a 
word, it is a yawning chasm. The gulf between trends in 
Xinjiang and trends elsewhere in China is dramatic, 
particularly in the areas of rule of law, civil society 
development, personal freedoms, transparency, and governance, 
as you have heard.
    I will give several illustrations of this gulf and then go 
on to give some forward-looking observations.
    The first illustration is the subjective or experiential 
dimension of living as a Uyghur and, in some cases, other 
minorities in Xinjiang. If you talk to Uyghurs about any of the 
human rights abuses that are common in China, throughout China, 
that the CECC frequently documents in its reports, the Uyghurs 
will talk about it differently, the experience differently. 
They are a distinct minority. The things that threaten their 
families, their choices in life, their personal freedoms, are 
not just violations of individual rights, but in many cases 
they feel it threatens their existence as a national group, 
that is, an ethnic group, their ability to choose their own 
cultural development.
    Several have been mentioned today. I will mention one more: 
the one-child policy. Of course, the one-child policy applies 
throughout China, and as an officially designated minority, 
Uyghurs technically are able to live under a more lenient 
provision, where, for example, they might be able to have two 
children, where a Han in the same situation would be able to 
have one child. But the Uyghurs experience this not, again, as 
a limitation on individual autonomy but, rather, as a state-
sponsored policy that limits people's choices about family and, 
in fact, effectively limits the growth of the people who belong 
to this identity and, as a way to control the ethnic group as 
well as individuals.
    Another example of this subjective dimension is to look at 
freedom of information and political discussion in China. We 
know that despite all kinds of Internet censorship, nonetheless 
a very lively discussion of very interesting ideas goes on, 
partly because of the Internet and blogging. You talk to 
Uyghurs and they say, ``There is just no comparison between 
what intellectuals and students and activists are able to do in 
heartland China compared to what we would be able to do.'' The 
same thing goes for the ``weiquan,'' or rights defense, legal 
movement, networks of environmental NGOs--nothing like that is 
possible for Uyghurs who would like to organize on any of these 
public policy issues that affect their lives.
    The second dimension of the gulf is the prominence of 
ethnicity. Government-supported racism is a daily fact of life 
for Uyghurs and other minorities, with openly discriminatory 
job announcements and the rest. Restrictions on Uyghurs' 
ability to check into hotel rooms in inner China, heartland 
China, is a blatant example, and quotas restricting hiring of 
Uyghurs in government positions as well, in the party and the 
government. There are even lists indicating the ethnicity of 
the chairman and the deputy chairman positions, which should be 
Han, which should be Uyghur, and vice versa, in different 
cases. These last are not open but ``neibu,'' confidential 
documents.
    The third dimension is government rhetoric. The PRC's 
``patriotic education'' campaigns have been fairly intense, 
especially since 1989. But the content of ``patriotic 
education'' has a very different flavor in Xinjiang compared to 
other places in China and other minority regions. Great 
emphasis, of course, on ethnic unity. Great emphasis, of 
course, particularly since 9/11, on anti-terrorism and the 
military imagery that goes along with that. And, third, 
overall, the language just feels very old. When you look at the 
billboards, you read what the newspapers say, it will feel like 
China of 15 or 20 years ago with lots of language about the 
``motherland,'' as was quoted already.
    One example: In 2004, Xinjiang celebrated the 50th 
anniversary of the ``liberation'' of Xinjiang, and below the 
statues featuring lots of Mao, displays featuring Mao as, you 
know, a wonderful figure in Xinjiang's history and China's 
history--that doesn't occur very much elsewhere in China. The 
slogan was, ``Fifty years of harmony between the Uyghur and 
Chinese people.'' In other words, a very Orwellian flavor to 
public propaganda.
    Fourth, I wanted to mention some structural things about 
Xinjiang governance that make it stand out and are not found 
elsewhere. Of course, people know about the Xinjiang Production 
and Construction Corps, which is a frontier mechanism modeled, 
of course, in part, on some historical means used by Chinese 
empires in settling and cultivating and securing, garrisoning 
frontier land. This happened after the establishment of the 
People's Republic of China. Few people know it was actually 
abolished in 1975 and was brought back in 1981 with the 
explicit objectives of countering Soviet encirclement, 
countering the East Turkistan independence movement--remember, 
this is 1981 and therefore, long before the 1990s incidents 
that we all think about--countering Islamic fundamentalism and, 
of course, the cultivation of frontier lands and economic 
development not found elsewhere. The Corps employs 2 or more 
million people out of a population of over 18 million.
    Governance. Wang Lequan, Party Secretary of the Xinjiang 
Uyghur Autonomous Regional Committee of the Communist Party of 
China, and first political commissar of the Xinjiang Production 
and Construction Corps, has been in that office since 1994. 
Students of elite politics in China can tell us a little bit 
about what it means that he has been in that position for 14 
years and is not subject to the same rotation rules as 
governors elsewhere or party chairmen.
    And the fifth dimension really is about the scale and types 
of human rights violations. This has been mentioned already 
this morning. I will just mention the statistic reported in 
January in the official Chinese press, that almost 1,300 state 
security-related arrests had been carried out in Xinjiang from 
January to November 2008. The Dui Hua Foundation's research 
shows that about one-half of all trials in China related to the 
crime of endangering state security takes place in Xinjiang. 
The crime of ``endangering state security'' includes 
trafficking in state secrets, separatism, espionage, 
subversion, and so on, and it does carry the death penalty. If 
half of these arrests take place in Xinjiang, that is another 
dimension where you are seeing something very different 
happening in Xinjiang than the rest of China.
    Now, I did promise to give some forward-looking 
observations. I will make them brief. More Han Chinese need to 
acknowledge the gulf. Things really are different. Too often 
you talk to Chinese human rights activists, and they say, 
``Well, Han suffer human rights violations, too.'' And that is 
true. But there are differences, and that needs to be 
acknowledged.
    Related to that, even very active Chinese democrats, 
liberal thinkers, people who want constitutionalism in China, 
are infected by the propaganda and think that any Uyghur who is 
an activist, politically active, is advocating for an 
independent country. In a public presentation, a Uyghur will 
say, ``We are looking for human rights,'' and give all kinds of 
details, and the question from a Han audience member will 
begin, ``Well, since you're asking for independence, . . .'' 
and they cannot hear the difference.
    Second, Han and Uyghurs have to think more about the 
future: federalism, governance, how to resolve tensions.
    Third, those who are outside China, Chinese and 
international human rights NGOs, should focus on where they can 
make a difference, and I am afraid to say that recommending 
things to the Chinese Government is a very long-term project. 
In the shorter term, it is possible, as Nury mentioned, to do 
more to enable Uyghurs who are not in China to receive 
protection. For example, it is important to ensure that third-
party governments are not bullied by the Chinese Government 
into returning Uyghurs who have applied for political asylum or 
have refugee status to China, to face terrible mistreatment, 
imprisonment, and even execution.
    And then, finally, I do want to say that raising 
international awareness, as the CECC has done so much to do, I 
think, again, in the long term can make a big difference. 
People who have the courage to speak should do so. People in 
China cannot. And many Chinese intellectuals have blinders on 
that make it hard for them to look at it. Eventually, with more 
discussion and careful documentation, I believe that this will 
filter through and enable Chinese activists who themselves are 
intellectuals and lawmakers who are the ones who are going to 
have to force the solutions, we want to help them by getting 
the information out there so that they can eventually learn 
from it.
    Mr. Grob. Thank you very much, Ms. Greve.
    And now, as we turn to the question-and-answer period of 
today's roundtable, I have the great pleasure of introducing to 
you Ms. Kara Abramson, senior staff specialist on Xinjiang with 
the Congressional-Executive Commission on China. I would like 
to thank you, Kara, for your hard work putting this program 
together. And just so all of you know, aside from being a 
Harvard-trained lawyer and a historian, Kara also is a linguist 
who reads, writes, and speaks Mandarin, Japanese, and Uyghur. I 
would like to turn to her to kick off the Q&A session--in 
English. [Laughter.]
    Ms. Abramson. Dr. Kaup discussed several strategies for 
engagement in her testimony, and I'd like to continue 
discussing this issue. Given the political sensitivities of 
this issue, given that the government has ramped up rhetoric 
against ``Western hostile forces'' infiltrating China in the 
name of human rights, and given that Xinjiang authorities 
continue to vilify Uyghur rights advocate Rebiya Kadeer, is 
there even an opening to begin to talk about these issues and 
engage with the Chinese Government? In addition, could some 
type of engagement also come from within China? I'd like to 
pose this question to all the panelists.
    Ms. Oldham-Moore. Brief answers so we can go right back to 
the audience. Thanks.
    Ms. Kaup. I agree with Louisa that this is certainly a very 
long-term strategy, and the Chinese Government is 
extraordinarily reluctant to talk about these issues, 
particularly to talk about Xinjiang. I am not suggesting we are 
going to sit down and say ``we feel your pain'' and, the 
Chinese Government is then going to ask to sit down to chat 
about what to do in Xinjiang. That is just not going to happen.
    That said, I think that presuming to understand the 
intentions of the Chinese Government and accusing it of using 
terrorism simply as a pretext to annihilate Uyghur culture is, 
frankly, just not productive. Whether or not you believe it to 
be true, it is simply not productive to make such harsh 
accusations, and the tone immediately puts the Chinese 
Government on the defensive.
    It would be much more constructive to say instead that the 
current policies are working at odds with the central 
government's own goals, and are driving into a corner those who 
would otherwise not find violence at all appealing.
    Ms. Oldham-Moore. Just very quickly, for those who did not 
hear the question, Kara asked: How can the United States and 
others constructively engage China on this issue?
    Ms. Abramson. And the second part--and these questions are 
for all of the panelists--if it is hard to engage from our end, 
or in addition to doing it from our end, is this type of 
engagement possible from within China and by whom?
    Ms. Greve. It is a very good question. In fact, at the 
National Endowment for Democracy [NED], we have thought this 
needs a lot of encouragement. We ourselves have conducted a 
series of meetings, starting in about 2004, with people of 
various ethnicities coming together. It is very hard, even when 
you get a group of committed, pro-democracy activists who have 
sacrificed their own lives, some of them served time in prison, 
they still find it very hard. So, one, realize that multi-
ethnic dialogue is important and is going to be difficult, and 
it can start with anybody. Nobody can do it--if you get it 
started anywhere, those people can then be ambassadors in an 
otherwise very bleak picture of people willing to listen and 
truly engage with people from another point of view.
    Second, the blogosphere, the alternative press, is one 
place to start things that can filter through, and certainly 
NED has been encouraging the more than half a dozen Internet-
based publications which are not subject--which are maintained 
on servers outside of China so they cannot be literally shut 
down, and then readers inside China can access them through 
using proxies. That kind of people, people are trying to push 
the boundaries of freedom of expression and getting away from 
the constraints of censorship inside China. This has to be one 
of the topics that is on the agenda for them.
    Ms. Oldham-Moore. Nury, please.
    Mr. Turkel. There are a lot of things that the United 
States can do. The fundamental problem is that the leaders of 
the free world have not expressed strong concerns publicly over 
Uyghurs sufferings, particularly on the ongoing onslaught 
against Uyghurs. People just mention Uyghur issues in passing 
and, as far as I know, no one yet brought up a list of specific 
issues to the Chinese and asked them to make improvements. 
President Obama and Secretary Clinton could say to the Chinese 
that it is okay to be Muslim and Uyghur, there is nothing wrong 
with it, and you need to respect their religious and cultural 
rights. I don't think anyone has said that to the Chinese yet. 
And the United States is in the best position to do that. It 
has been done on behalf of the Tibetans in the past. As a 
result, the Chinese Government is fairly careful in their 
dealing with the Tibetans inside China.
    Number two, the United States should send a high-level 
official, perhaps Secretary Clinton, to East Turkistan and 
deliver a speech that the United States cares about the 
Uyghurs. That would be very powerful because it will give 
Uyghurs a hope that there will be a light at the end of the 
tunnel. We have heard President Obama's message of hope to the 
nation in the last two years, and some of that hope needs to be 
delivered to the Uyghurs.
    Finally, the State Department and the other government 
offices here in Washington need to have someone with a full-
time responsibility working on the Uyghur issues. Again, the 
Chinese are not taking Uyghur issues seriously because there is 
not much work done on behalf of the Uyghurs.
    Ms. Reger. I would just like to say it is very important 
for American officials to consistently raise Uyghur issues, 
like Nury was talking about, both inside China and in the 
United States when we have a forum to talk with Chinese 
officials. The U.S. Government should consistently raise Uyghur 
human rights issues. At the very least, this will bring hope to 
the Uyghur people, and despite the difficulty of perhaps 
effecting broader policy changes in the PRC or in East 
Turkistan, at the very least we can hope to achieve small 
victories.
    For instance--and perhaps this is not a small victory, but 
without the intervention and the pressure exerted by U.S. 
officials, Ms. Kadeer would not have come here a few years ago. 
Just a few months ago, U.S. Congressmen and other officials 
raised the issue of forced abortion in East Turkistan, 
particularly focusing on the case of Arzigul Tursun. She was 
six months' pregnant, and in contravention of Chinese law, 
local officials attempted to force her to have an abortion. But 
after U.S. officials raised concerns about her case, she was 
allowed to return home and continue with her pregnancy.
    And I also would like to point out--I am not normally in a 
position to comment on U.S. policy issues, but I believe it 
would be in the best interests of the United States to foster 
support and engagement with Uyghurs considering that they are 
among the most pro-American and pro-Western Muslims in the 
world, since they live across the border from a very volatile 
region. So it would make sense if the United States would 
express support for this population.
    Ms. Oldham-Moore. Nury has one more comment, and then I 
want to say something, too.
    Mr. Turkel. I forgot to mention that there is a large 
Uyghur population outside China, and how the United States 
handles the Uyghur issue, how much support the U.S. Government 
gives to the Uyghurs have a direct impact on the lives of the 
Uyghurs living in Central Asia, Europe, and other parts of the 
world. To me, the countries that have Uyghur populations have 
been shaping up their Uyghur policies based on the United 
States' Uyghur policies. So it is, like Kate said, the Uyghur 
issue is not a simple domestic issue in China. Rather, it is a 
cross-broader and geopolitical issue. So the United States 
should also actively engage in and talk with other players, 
particularly countries in Central Asia that have a sizable 
Uyghur population, to urge those governments to grant civil 
rights to their own Uyghur citizens and stop harassing the 
Uyghurs residing or visiting their respective countries. That 
would be a tremendous help.
    Ms. Oldham-Moore. I want to follow up on what Nury said 
because it is important to note the efforts of some Members of 
Congress who have worked on the Uyghur issue. They include 
Senator Sherrod Brown, who has introduced a resolution 
concerning Uyghurs, Senator Inhofe, and Representative Ros-
Lehtinen, among others.
    [Inaudible, off microphone.]
    Ms. Oldham-Moore. Okay. Thank you very much. Nury, please?
    Mr. Turkel. On the issue of self-determination, it is very 
hard to get a real sense of what people really want for their 
nation because there is no freedom of expression in China. It 
is hard to poll public opinions among the Uyghurs to find out 
what they really want.
    But the pressing issue for the Uyghurs both inside and 
outside China is how to save the Uyghurs as a distinct ethnic 
group or nation, if you will. That is the most important, 
paramount issue. And, of course, Uyghurs would like to run 
their own national, political, and economic affairs. But 
prioritizing what needs to be done, the Uyghurs are highly 
focused on preservation of their cultural heritage at the 
moment.
    On your second question, the answer is yes and no. Yes, 
because Tibetans have built such a strong, worldwide grassroots 
movement. That is something that the Uyghurs can and should 
learn. And no, because, in my view, Tibetans should know it 
better, but I do believe that Tibetans' genuineness, offers, 
and efforts are not being appreciated by the Chinese. And I 
think that is a good lesson to learn, but I do not think it is 
something good for the Uyghurs to follow.
    The Chinese Government did not show any good intentions. 
Some Tibetans believe that the dialogue is something that 
should be continued and it helps to further publicize Tibetan 
issues. Of course, it gets lots of media attention, media 
coverage. But I have not seen and/or heard specific 
improvements made as a result of the ongoing dialogue with the 
Chinese. As for the last question, the concerns about the other 
minorities are well understood, but as I point out in my 
statement, the Chinese Government's policy toward those 
minorities, including the Kazakhs and others, are not as nearly 
oppressive as they have been to the Uyghurs. So the Uyghurs 
always have been a target for China's oppressive policies. So-
called minority conflict in East Turkistan is a modern 
phenomenon. As you may know, in 1944 there was a multi-ethnic, 
republican system of government established in East Turkistan, 
and the head of the government was Uzbek, and some of the most 
senior military leaders were Kyrgyz and Kazakh. It is fair to 
say that there was no ethnic conflict between various groups in 
East Turkistan before the Chinese took over the region.
    Ms. Oldham-Moore. Great. Thank you very much.
    Please, in the back.
    Ms. McCoy. Jenny McCoy, China Aid. Thanks for your 
comments. I have a question about how to advocate on behalf of 
political prisoners in Xinjiang.
    Ms. Oldham-Moore. Excellent.
    Ms. Greve. Again, an often overlooked element of your press 
list would be the Chinese language publications that try to 
reach Chinese readers so that they, too, can become aware of 
how to speak about political and religious prisoners in the 
ethnic minorities area, whether it is Mongol or Tibetan, Uyghur 
or Kazakh, Uzbek, and so on, in universalistic human rights 
terms. In general, that is something that Chinese civil society 
and intellectuals are still learning, and certainly about 
people in Xinjiang. So I would say always please include on 
your list all Chinese language publications.
    Ms. Oldham-Moore. That is great.
    Ms.Perkins. This is a question for all panelists. What do 
you think about the approach of empowering Uyghur minority 
groups on the ground? Can we provide funding? I understand that 
we have some restrictions on U.S. funding to groups on the 
ground in China. But we also have some exceptions, including 
funding programs that preserve culture and environment for 
other ethnic groups, such as Tibetans. Do you think this 
approach would work well in the Xinjiang Uyghur Autonomous 
Region?
    Ms. Greve. It has been done. The Congress has taken up for 
Tibetans this kind of funding to support education and 
entrepreneurial grassroots economic development that is well 
distributed and so on. And it is absolutely to be encouraged to 
have the Congress explore this for Xinjiang. I think Nury would 
be able to speak better to the particular circumstances. And, 
in fact, in Tibet, it is very hard, as you know, to get the 
work done, lots of blocking of programs and very suspicious 
local government wanting to check everything, and that would go 
probably 10 times for Xinjiang. But it is absolutely worth 
trying.
    Mr. Turkel. What immediately can be done? I agree with 
Louisa. What immediately can be done is that the U.S. Congress 
sets up a scholarship for Uyghur college graduates to come here 
to enroll in graduate programs and return afterward. And that 
would be tremendously helpful.
    Ms. Reger. I just wanted to add one thing--it is, of 
course, important to foster civil rights for Uyghurs in East 
Turkistan. One additional thing that the United States and 
other governments can do that have ethnic Uyghur populations is 
provide programmatic and financial support for groups that 
are--or Uyghur organizations forming to preserve and maintain 
the Uyghur language and culture and historical documents and 
materials. I believe that there is one such organization that 
is forming in the Washington area, so that is another sort of 
program that could be developed.
    Ms. Kaup. I wonder if I could combine a couple of the 
questions to frame my comments. I think the question that was 
raised about how many Uyghurs want self-determination 
illustrates the importance of recognizing the complexities 
facing the Chinese Government while pressing it to change its 
treatment of minorities in Xinjiang. Current policies clearly 
repress and prohibit any discussion of claims for self-
determination, but there is a legitimate concern on the Chinese 
Government's part about what happens when those controls are 
loosened. And if we just discount that, whether ``we'' be the 
U. S. Government or international rights organizations or 
scholars, if we just discount it and continue to claim that the 
Chinese Government is being entirely unreasonable and has no 
legitimate concerns and is just interested in annihilating the 
Uyghur culture, I think we miss an opportunity to engage in 
dialogue. We miss an opportunity to discuss with the Chinese 
Government how we have handled dissent, or how other countries 
have, or indeed how any nation can handle demands for self-
determination without exacerbating the tensions and inequities 
inspiring such demands. How can the Chinese Government protect 
freedom of expression and, precisely through protecting such 
freedoms, therefore show Uyghurs that they can flourish within 
a unified state? This is the question we want to address.
    I would also like to respond to the earlier question of 
what can be done by those working within China. Security is so 
tight right now that one can barely even talk about issues in 
Xinjiang in China.
    So I think that if movement is going to come from within 
China, it has to be done in areas that the Chinese Government 
is going to find acceptable. It can be very difficult to 
cooperate with the Chinese Government in this area, 
particularly if one objects strongly to its policies. But there 
are certain policy arenas, education, for example, in which the 
Chinese Government is willing to allow international 
participation. I think Nury's recommendation that the U.S. 
Government provide scholarships to Uyghur students to study in 
the United States is an excellent idea. It is also important to 
work with NGOs strengthening educational opportunities for 
minorities within Xinjiang. The central key to alleviating 
ethnic tensions in Xinjiang is not breakneck-rate economic 
development, but enabling and empowering the Uyghurs to 
participate in their own cultural and economic development 
within the PRC. Improving educational opportunities can move us 
one step in this direction.
    Ms. Oldham-Moore. Great. Anybody else? Yes, please.
    [Inaudible, off microphone.]
    Ms. Oldham-Moore. She asked: How have other Muslim 
minorities responded to the persecution--persecution by whom? I 
am sorry.
    Audience Participant. Of the Uyghurs.
    Ms. Oldham-Moore. Of the Uyghurs.
    Mr. Turkel. I would love to respond to that question. 
Muslim countries have been unfavorable and they don't seem to 
care about their fellow Uyghur Muslims. It is ironic. The 
Uyghurs have been persecuted by the Chinese in China and 
ignored by the West mostly because they happen to be Muslim. 
You know, being a Muslim is not such a great thing in these 
days. And Muslim countries, including Saudi Arabia, Pakistan, 
and many others, to that extent, are collaborating with the 
Chinese. For example, Pakistan has rounded up Uyghurs who were 
sympathetic to the Uyghur cause or involved in Uyghur political 
activities. Pakistanis repatriated many of those Uyghurs to 
China where they were tortured, imprisoned, or executed.
    Another Muslim country, Uzbekistan, arrested a Uyghur 
Canadian, a Canadian citizen in Tashkent. And he was deported 
to China and sentenced to life in prison. To date, Canadians 
have not been granted counselor access to him despite personal 
involvement of Canadian Prime Minister Stephen Harper.
    And other countries in the Middle East, Saudi Arabia 
politicized pilgrimage issue. Saudis will not issue visas to 
the Uyghurs unless they have pre-approval or clearance from the 
Chinese. That has subjected the Uyghurs to Chinese harassments 
and humiliations. As far as I am concerned, Saudis don't apply 
the same restrictions to the Muslims from other countries. Last 
year, nearly 1,000 Uyghurs in Pakistan demonstrated in front of 
the Saudi Embassy and applied for visas. Their applications 
were denied and one individual died during the demonstration. 
With the help of U.S. Government officials and Members of 
Congress, Saudis allowed the Uyghur Muslims to travel to Saudi 
Arabia for pilgrimage. I mean, the situation for the Uyghur 
cannot be worse than this. Often times, people think, ``Oh, 
Uyghurs are Muslims, so they are getting all the help from the 
other Muslim states or Arab states or Middle Eastern states.'' 
That's not the case at all. Actually, it is the opposite.
    Ms. Oldham-Moore. Thank you.
    Yes, sir, please?
    Audience Participant.  I'd like to ask panelists to discuss 
educational and cultural issues, including the threats we face 
through ``bilingual education'' and the challenge of protecting 
our culture.
    Ms. Oldham-Moore. The CECC agrees with you that the 
education issue is an extremely important one, and I want to 
draw your attention to our Xinjiang reprint from the 2008 
report. An extended addendum is dedicated to bilingual 
education in Xinjiang and goes into quite a lot of depth on the 
very issues you are raising. So thank you very much for your 
point.
    Kate, please?
    Ms. Kaup. I would like to pick up on your mention of 
cultural issues. We have been talking quite a bit about what 
might be done both within and outside of China to help protect 
Uyghur rights and the Uyghur culture. One very important 
contribution that I think the Uyghur diaspora movement could 
make is to introduce the world to Uyghur culture rather than 
focusing almost exclusively on human rights violations in 
Xinjiang. The Tibetan movement has drawn more attention than 
that of the Uyghur people in part because people are interested 
in Tibetan culture. They think it is ``cool,'' to use Nury's 
word. I think very few Americans, very few people outside of 
Xinjiang, in fact, know what Uyghur culture is. We certainly 
need good monitoring of human rights issues and violations in 
Xinjiang. But instead of hammering on human rights atrocities 
exclusively, let's learn instead about Uyghur food, or Uyghur 
short stories, or Uyghur art. Let's hear more about why it is 
so important to preserve Uyghur culture, not just that it is 
difficult to do so.
    Ms. Oldham-Moore. Yes, thanks. Dennis Halpin, and then Toy 
Reid, and then I think we may need to close.
    Mr. Halpin. [Off microphone]. [Inaudible].
    Ms. Oldham-Moore. Dennis, it should be noted, does an 
enormous amount of heavy lifting in the U.S. House of 
Representatives on behalf of human rights issues that concern 
China, so it is an honor to have him here today.
    Do any of our panelists want to take his question--yes, 
please?
    Mr. Turkel. From what we know, the Uyghur issue is already 
on President Obama's desk because of the Guantanamo Uyghurs. 
There are some valid criticisms that have been made on Bush's 
overall detention policies but we should acknowledge the fact 
that the Bush Administration successfully resisted the pressure 
from the Chinese on their request to repatriate the Guantanamo 
Uyghurs. While maintaining close relations with China, the 
United States did not give into the pressure to ship the 
Uyghurs back to China. That worked.
    Also, one other thing that the United States did in the 
last several years was to refuse to designate additional Uyghur 
groups as terrorist organizations. That also worked.
    And President Obama is in a very good position to do 
something for the Uyghurs at the moment; that is to release the 
Uyghurs into the United States. It would be a symbolic step 
that would eventually help Obama to empty the prison camp in 
Guantanamo. Also, by doing that, he can show to the Chinese 
that he knows what is right and what is wrong. He can explain 
to the Chinese that his administration did whatever was 
necessary after careful review and investigation, along with 
judicial process and found no evidence that the Uyghurs pose a 
security threat to the United States. That would be a very 
specific and important thing that the U.S. Government can do in 
the foreseeable future for the Uyghurs.
    The other benefit is that it will help President Obama to 
encourage other governments in Europe, European allies to help 
to take the rest of the cleared detainees who cannot return to 
their countries. There are about 60 detainees out of 250 
prisoners in Guantanamo who cannot go back to their country. Of 
those, 17 are Uyghurs.
    Ms. Oldham-Moore. Thank you.
    Toy Reid, you have the last remark--a question, I hope.
    Mr. Reid. It is a question. Thank you. I am Toy Reid with 
the CECC. The prominent question is this: why should we allow 
the Chinese Government to define the terms of this discussion 
and set limits on what topics it is willing to discuss? As I 
was listening to some of the views expressed, there were a 
couple of themes that I picked up on.
    One thing I noticed was when we talk about this issue 
within the Chinese framework, the Uyghur people, along with 
many other nationalities, are typically referred to as ``ethnic 
minorities.'' I often think about whether or not these groups 
perceive of themselves in those terms. To the best of my 
knowledge, even in Chinese, the term ``ethnic minorities'' or 
``shaoshu minzu,'' is a relatively new invention. The 1920s is 
the earliest reference that I know of to the term. And so, I 
wonder if there aren't historical and political reasons that 
might cause us to reflect critically on the use of that 
terminology.
    In addition, it was also mentioned that getting the Chinese 
to talk about these issues at all is quite difficult. It is 
regarded as a non-starter. And I understand that frustration 
and difficulty. But I also wonder, are we giving up too much by 
allowing the Chinese authorities to unilaterally set the terms 
of what is and is not a proper subject for dialogue? Does our 
use of PRC Government terminology reinforce their claim that 
Uyghurs are an ethnic minority within China, that Xinjiang is 
completely a domestic issue, and therefore, we have no right to 
get involved?
    Ms. Oldham-Moore. There is a question in there. I know 
there is.
    Mr. Reid. The question is: should we allow the PRC 
Government to set the terms of what they are willing to talk 
about? And should we be more careful about adopting various 
terms that they use to describe the situation--terms that may 
not be universally embraced by those who are being described by 
such terms?
    Ms. Kaup. Good questions. You have clearly been very well 
trained. [Laughter.]
    I actually hope that is not the message you took from my 
comments, though. I am not at all suggesting that we should let 
the Chinese Government set the parameters of our discussion 
with them. I am saying that it is dangerous within China to 
raise Uyghur issues. There are just certain topics that can be 
discussed safely and others that cannot. One can raise certain 
issues about minorities. One can talk about economic 
development strategies for minorities. One can talk about 
minority languages within certain frameworks. It is just not 
wise, however, within China to be publicly raising questions 
about Uyghur rights at this moment. But I am not at all 
suggesting that we should let the Chinese Government tell those 
of us outside of China what topics are taboo to raise, discuss, 
or promote.
    You also asked about the use of the term ``minzu'' and 
whether we should use the Communist Party's classification 
system of labeling minorities. The term ``minzu'' has been used 
for at least 100 years, and the concept has been adopted by 
most minzu themselves. I actually wrote a book called 
``Creating the Zhuang: Ethnic Politics in China,'' that looks 
exactly at this question of how many minorities have adopted 
and utilized the state's classification categories to promote 
their own interests.
    Ms. Oldham-Moore. Yes, Amy, please.
    Ms. Reger. I just wanted to make a short comment, which is 
that ``minzu'' has been used, as Kate noted, for a long time to 
describe so-called ethnic minorities, among them Uyghurs. But 
in Chinese, it has a rather ambiguous meaning, which could mean 
ethnic minorities or ethnic nationalities. And what we have 
been seeing in recent years is that they are sticking with--the 
Chinese Government is sticking with the use of the word 
``minzu'' in Chinese, but in English, they are being very 
sensitive to using ``nationality'' instead of ``ethnic 
minority.'' So, for instance, the Central 
Minority Nationality University in Beijing--I hope I got that 
right--they just recently changed the name to Central Minzu 
University. It seems like they are trying to ward off any sort 
of perception that the people, you know, the students attending 
the school or the nationalities being learned about at that 
school are, in fact, a unique nationality as opposed to a 
minority in the context of the greater PRC. And I think it is 
important for us to--it is important for any nation or any 
people to be able to define themselves according to their own 
definition.
    Ms. Oldham-Moore. A last remark.
    Mr. Turkel. Thank you. This is not completely related to 
what we have been talking about this morning but I would like 
to make something really clear here on the name of the Uyghurs. 
The Uyghurs have only one name: Uyghurs. No adjective, no 
adverb is needed. It is not Chinese Muslims, not Muslim 
Uyghurs. We have been hearing or reading a bunch of different 
descriptions of the Uyghurs. But I believe they are all 
unnecessary. Uyghurs are Uyghurs. Again, no adverbs or 
adjectives are required. And as all of you know, there is 
another separate Muslim group called Chinese Muslims in China. 
Sometimes they are also called Hui Muslims. Uyghurs do not 
represent them or the other Muslim groups in China. We are just 
Uyghurs. I want to make that very clear, especially to the 
people from the press.
    Ms. Oldham-Moore. Okay. Thank you so much. I want to thank 
all the panelists for coming today and offering us unique 
perspectives and information on this issue. Amy Reger, Nury 
Turkel, thank you for your overview of recent developments; 
Katherine Kaup and Louisa Greve, thank you for providing a 
broader context, and also for some excellent recommendations on 
moving forward.
    Have a great day.
    [Whereupon, at 11:34 a.m., the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                           Prepared Statement

                              ----------                              


                    Prepared Statement of Amy Reger

                           february 13, 2008
    During this week's Universal Periodic Review of China at the UN, a 
member of the Chinese delegation asserted that there is no ethnic 
conflict in the People's Republic of China. Chinese ambassador Li 
Baodong emphasized what he called ``preferential policies'' for Uyghurs 
and other minority nationalities, citing lower score requirements for 
university entrance exams. According to the Chinese delegation, the 
only discontent that exists among Uyghurs is sown by hostile foreign 
forces aiming to split China--and this discontent does not represent 
the happy majority.
    Unfortunately, the reality for Uyghurs in the PRC is much different 
than the Chinese delegation's rhetoric would have us believe. It is 
hard to reconcile these remarks with security clampdowns that have been 
ongoing in East Turkestan (also known as Xinjiang Uyghur Autonomous 
Region) in the past year, and a human rights situation for Uyghurs that 
is more severe than it has been in many years. The year 2008 was one of 
disappointment for those who hoped that the Olympics might expand 
freedoms for Uyghurs.Underlining the PRC's massive campaign against 
Uyghurs in 2008 was a rise in reported arrests for terrorism, extremism 
and other state security charges in East Turkestan. According to an 
official Chinese newspaper report, nearly 1,300 people were arrested in 
East Turkestan on state security crimes in 2008, marking a steep 
increase over previous years. The 2008 figures marked a very sharp 
increase over 2007, which saw only 742 people arrested on state 
security crimes throughout the entire PRC. Under Chinese law, 
individuals can be prosecuted for ``endangering state security'' if 
they are believed to have engaged in subversion, ``splittism,'' and 
``illegally providing state secrets to overseas entities,'' all charges 
that are of a highly subjective nature in the PRC.
    The PRC government has undertaken a fierce campaign of repression 
in East Turkestan since the Olympic Games period, when a series of 
violent attacks took place in and around the cities of Kashgar and 
Kucha. Xinjiang Party Secretary Wang Lequan announced a ``life or death 
struggle'' in East Turkestan on August 14, as well as a hardening of 
measures designed to manage Uyghur issues.
    One of these measures, according to the Hong Kong-based Information 
Center for Human Rights and Democracy, was the deployment of around 
200,000 public security officers and armed police to East Turkestan to 
``prevent terrorist attacks'' in the post-Olympic period. News reports 
have indicated the implementation of intensified ideological campaigns 
throughout the region in subsequent months.
    While PRC authorities claim the security measures are aimed at 
punishing individuals involved in the violent attacks that took place 
during the Olympics period, the scope of the crackdown represents a 
broad, far-reaching campaign of intimidation and fear aimed at the 
Uyghur community.
    Security measures carried out in 2008 targeted large numbers of 
Uyghur civilians, including many not suspected of involvement in any 
crime, in contravention of both Chinese law and international law. 
Particularly in the period leading up to and during the Olympics, UHRP 
noted a widespread clampdown among Uyghurs and a corresponding rise in 
arrests and detentions. These included the arrests of more than 1,000 
individuals in security sweeps in the cities of Kashgar and Kucha, and 
the arrest of 160 Uyghur children, aged 8 to 14 years old, for 
participating in ``illegal religious activities.'' Authorities also 
used the tactic of detaining family members and associates of alleged 
attackers in an attempt to bring in suspects.
    Emerging evidence has undermined the basis for the PRC's 
government's repression in East Turkestan. Chinese Government officials 
accused a number of Uyghurs of conducting the attacks in the Kashgar 
and Kucha areas, adding that the suspects had received substantial 
assistance from international terror groups. However, no evidence has 
ever been produced to support the allegations of international 
assistance in the attacks.
    A September 29 New York Times article cast doubt on Chinese 
Government claims about the deadliest of the attacks, in which 16 
people reportedly died in Kashgar. Independent photographs suggest that 
events did not occur as the Chinese Government claims. The photographs 
show men in police uniforms carrying out the attack against other 
policemen, casting doubt on Chinese Government claims that a vegetable 
seller and a taxi driver were responsible.
    In the first half of 2008, the PRC government issued a series of 
specific Olympics-related terrorism claims, without providing evidence 
to support its accusations. These included an alleged plot by a young 
Uyghur woman to blow up or crash an airplane on its way to Beijing on 
March 7, and the arrest of some 45 people in April on suspicion of 
planning to kidnap athletes and carry out suicide bomb attacks to 
sabotage the Olympics.
    Since the events of September 11, 2001, PRC authorities have used 
the ``war on terror'' as a pretext for cracking down on religious and 
political dissent in the region. Tens of thousands of Uyghurs are 
believed to have been detained in the years since 2001, and hundreds 
are believed to have been executed. Individuals caught up in this 
campaign include Tohti Tunyaz, a Ph.D scholar who was released this 
week from prison after serving an 11-year sentence for conducting 
historical research in East Turkestan deemed subversive by government 
officials, and Nurmemet Yasin, a young Uyghur poet and intellectual who 
was imprisoned for writing an allegorical story that was viewed as 
separatist.
    Uyghurs in East Turkestan suffer a broad scope of abuses to their 
civil, political, economic and social rights, including the fierce 
suppression of their religion, the use of the legal system as a tool of 
repression against Uyghurs who voice discontent with the government; 
PRC government support of the influx of huge numbers of Han Chinese 
economic migrants into East Turkestan; the forced transfer of young 
Uyghur women to work in poor conditions in eastern China; 
discrimination in hiring practices; unequal access healthcare services; 
and the elimination of Uyghur language schools under the current 
``bilingual education'' policy.
    ``Bilingual'' education in East Turkestan has evolved in an 
increasingly repressive political environment, as one aspect of a 
government: driven project to assimilate Uyghurs by attacking and 
diluting their culture. It was conceived around the time of the 
founding of the post-Soviet Central Asian states in 1991, a turning 
point in the PRC's view of East Turkestan, when the government began to 
become obsessed with ``security'' and ``stability'' in the region. 
Drives to expand ``bilingual education have paralleled heightened 
campaigns to promote security and battle separatism. For instance, in 
2004, the year in which a particularly harsh ``strike hard, extreme 
pressure'' campaign aimed at repressing ``the three evils'' of 
``separatism, extremism, and terrorism'' resulted in the arrest of 
hundreds of Uyghurs, the rate at which ``bilingual'' education was 
eliminating Uyghur from East Turkestan's schools increased 
dramatically.
    A recent Xinhua news article described the policy as aiming ``to 
encourage Xinjiang native teachers to teach both languages as a way to 
safeguard culture and promote the national standard.'' According to 
Chinese Government propaganda, ``bilingual education'' is being put 
into place throughout East Turkestan to improve educational and 
employment opportunities for Uyghur children. One of the major problems 
with this type of justification is that ``bilingual education'' is not 
``bilingual'' at all, but rather monolingual. Another situation that 
challenges the Chinese Government's official assertions regarding its 
motivations of providing a truly bilingual education is the removal of 
Uyghur children from their cultural environment and their placement 
into Chinese-language ``Xinjiang classes'' located in 12 inland Chinese 
cities. This program has not been well-received among Uyghurs in East 
Turkestan, who view ``Xinjiang classes'' as an attempt to Sinify young 
Uyghurs, while there exists no parallel effort to educate young Han 
Chinese students in the Uyghur language and culture. A third challenge 
to the official portrayal of the ``bilingual education'' program lies 
in the relative lack of access to English-language instruction for 
Uyghur students at the high school and university level. Uyghur high 
school students who study at ``minkaomin'' schools (schools in which 
they receive Uyghur-language instruction) are not given any English-
language instruction, while English-language instruction is widespread 
at ``minkaohan'' schools (schools in which courses are all taught in 
Chinese). Uyghur university students are required to study Chinese as 
their second language, and not English.
    The ``bilingual education'' policy has been pursued for the past 
decade, but with increasing intensity since 2002. Past policies were 
more egalitarian and allowed Uyghur parents more of a choice in their 
children's languages of instruction. Over the past seven years, 
government efforts at eliminating Uyghur language schools have 
accelerated dramatically, as compulsory Chinese language education has 
been expanded at every educational level and every township in East 
Turkestan. The ultimate goal of ``bilingual'' education appears to be 
to replace Uyghur language instruction with Chinese language 
instruction in all areas of East Turkestan, and to phase out the use of 
spoken Uyghur among the young Uyghur population.
    Since 2002, with the exception of Uyghur languages and literature, 
classes at Xinjiang University have been taught solely in Chinese, 
virtually removing Uyghur as a language of instruction at the region's 
most prestigious university. Local governments have committed to 
eliminating Uyghur language instruction, even in areas with large 
majority Uyghur populations. ``Bilingual education'' was implemented in 
high schools, middle schools and elementary schools, and in 2005, the 
``bilingual'' education push was expanded into East Turkestan's 
preschools.
    At least one official newspaper reported that the number of 
students in ``bilingual education classes'' in East Turkestan grew from 
5,533 students in 1995 to 294,000 in 2007, and the number of schools 
offering ``bilingual classes'' grew from 220 in 1995 to 8,788 in 2007. 
Official sources reported recently that within the next five years, the 
state would provide free training to 11,264 bilingual pre-school 
teachers, and within the next six years, the XUAR would recruit around 
16,000 teachers to supplement the current pool of bilingual primary 
school teachers. Xinhua reported that since 2003, China has invested 
130 million yuan, or 19 million U.S. dollars, to train bilingual 
teachers for elementary and high schools. Xinhua also reported that 
there were 18,000 ``bilingual teachers'', 5,000 bilingual classes and 
150,000 bilingual pupils in East Turkestan in 2008.
    The bilingual teachers who are set to be trained in the next 
several years will almost certainly be drawn from the Han Chinese 
population, and many Uyghur teachers who cannot pass stringent language 
tests may be expected to lose their jobs. Many Uyghur teachers 
throughout East Turkestan have already been fired from their jobs, and 
many others have been forced to completely stop teaching their students 
in Uyghur and use only Chinese, even if all of the students are 
Uyghurs.
    Remarks by Xinjiang Party Secretary Wang Lequan at the National 
Party Congress in March 2008 indicate that provincial authorities, with 
the support of the central government, plan to invest 3.7 billion yuan 
in order to implement ``bilingual education'' programs in 85% of the 
region's kindergartens in the next three to five years.
    As the Han population has increased, Han individuals have also 
received a greater share of the economic benefits from East Turkestan's 
growth, including economic and employment opportunities not available 
to Uyghurs. While the Chinese Government asserts that ``bilingual 
education'' will provide ethnic Uyghurs with the Mandarin language 
skills necessary to succeed in China's competitive job market, many 
Uyghur graduates who are fluent in Mandarin Chinese report facing 
employment challenges due to rampant ethnic discrimination among 
employers. As one former Uyghur teacher recalled, when he traveled with 
his Chinese-speaking Uyghur students to job fairs, they observed signs 
flatly stating 'we don't want minority people'.
    The program of the ``Xinjiang classes'' mentioned above was 
established in inland Chinese cities in 1997. ``Xinjiang classes'' 
remove top minority students in East Turkestan from their cultural 
environment and enroll them in classes with Chinese language 
instruction in high schools in large inland Chinese cities. Parents of 
such students report being pressured into sending their children.
    Official media have quoted Xinjiang Party Secretary Wang Lequan as 
saying that the chief goal of ``Xinjiang classes'' is ``political 
thought training'', not academic preparation, and other government 
officials have described the program as a way to ``deepen national 
feelings'' and ``strengthen correct political attitudes'' as part of a 
``long term important strategic policy decision... to protect the unity 
of the motherland and safeguard the nation's long and peaceful order''.
    In some of these schools speaking Uyghur is prohibited, even in 
student dormitories, where pupils are watched by an on-site monitor. 
Children from one ``Xinjiang class'' in Qingdao were forbidden to 
communicate in Uyghur, even when visited by an officially approved 
ethnic Uyghur journalist. By 2006, ``Xinjiang classes'' had been 
expanded from 12 to 26 Chinese cities and had a total enrollment of 
over ten thousand students.
    By forcing Uyghur children to study in a language other than their 
mother tongue, the PRC government is in clear violation of its own laws 
and agreements, including Article 4 of the PRC's Constitution, 
Compulsory Education Law and Ethnic Regional Autonomy Law. The PRC is 
also a signatory to the International Covenant on Civil and Political 
Rights and the Convention on the Rights of the Child, both of which 
guarantee minorities protection of their language rights. In addition, 
the PRC's ``bilingual education'' policy, as it is being implemented, 
serves to increase tensions between Han Chinese and Uyghurs in East 
Turkestan.
    The PRC should end its current policy of eliminating Uyghur 
language education from East Turkestan and, at a minimum, return to the 
policy of allowing for both Uyghur and Chinese language education 
systems. ``Bilingual education'' will work only if authorities support 
schools in which both Uyghur and Chinese are recognized as important 
regional languages and serious academic classes are offered in both 
languages. Government support of the Uyghur language would both improve 
ethnic relations and contribute to economic growth in East Turkestan. 
Many observers have noted that language issues play a large role in the 
ethnic tensions of the region. A commitment to Uyghur language on the 
part of the government would ultimately contribute to the goal of 
stability by easing an area of serious Uyghur discontent.

                                 <all>

</pre></body></html>
